                                   OFFICE OF INVESTIGATIONS

                          CLOSEOUT MEMORANDUM




There was no closeout written at the time this case was closed. The following information was
extracted fiom the file in conformance with standard closeout documents.

Our office was informed that the subject' was alleged to have committed financial conflicts of
interests and travel abuse. An investigation revealed no travel fraud and we provided NSF
management a report on the conflict of interest issues.

Accordingly this case is closed.




OIG-02-2
                              bT"TIONAL SCIENCE FOUNDATION
                                 WASHINGTON, D.C. 20550



I
        Office of



i
1
    Inspector General



                             CONFLICT OF INTEREST INVOLVING
                                       PROGRAM OFFICER
                        (Investigative Report-Case No. 190060021)
      Basis for Investigation
     In June 1990, the Office of Inspector General received an allega-
     tion that i                 was the cognizant program officer on
     grants in which hehad conflicts of interest and that he had used
     official NSF travel for his personal benefit.
      Our initial inquiry disclosed that                      is the program
      officer in the


                           was listed as the program officer for two
      awarded to                      .,
      grants in which he had possible conflicts.
                                    a New York
                   wife as a vice president for sales.'
                                                                     was
                                                          which employs
      was awarded to ---                             Under the award,
                                 was the              for the ~roject.
                 had been a- vice president at                   before
      retiring in January 1988, and accepting an appointment at NSF.
      Under authority of the Inspector General Act of 1978, as amended,
      we investigated possible violations of federal statutes, and NSF
      regulations involving conflict of interest.
      Method of Investigation
      We reviewed all relevant files and records and conducted personal
      and telephone interviews.     The subject of the investigation
      cooperated fully with the OIG investigation and provided sworn
      st-atementsduring three separate interviews.
I.

          , '   1
     \-
I

     -
                    Background and Chronology
                    From June 1984 throucrh January 1987,              was employed as a
                                                                       \



                    vice president for                      and at the same time advised
                    the Assistant ~irecto; for            on the condition of
                             , on policy and direction for                       , and on
                    strategies for achieving program balance.         During this time,
                                                        to --.on advice from . , Division
                    Director,
                    developed the
                                   . -
                               also provided
                                       -        advice
                                                   ., acting
                                           proj ect , originally named           project.
                                                                                         I


                    The        project 1 s solicitations were intended to encourage
                    partnerships      among
                                                     for developing and disseminating a
                    number of competitive, high quality, alternative science programs
                    for use in American schools.
                    In August 1986,             . negotiated to bring            ! on
                    board as program director.         to oversee the        Project.
                                proposed that            serve as a Mvolunteerm for a
                    l-year period with salary and benefits paid by                  -

                    At the end of 1 year,                 would retire from
                             and become an NSF employee with government salary and
                    benefits.    The following is a chronology of I                   5
                    employment with NSF, as documented by NSF records.
                                                         . became a full-time NSF volunteer.
     @
                       January 5, 1987,
                    His salary and benefits were paid by
                    * Februarv 5. 1987. NSF received a pro~osal,                    . , from
                                        - - - -1. ,I                   was designated as the
                    project ' s
                      Hay 14-16, 1987, the --                                    n) proposal
                    was considered by a review panel.
                    * June 4, 1987,                    t documented his possible conflicts
                                                     and :
                    with both
                        staff .  In the memorandum '
                                                                      in a memorandum to all
                                                                    e stated, nI disqualify
                    myself from any activity in [the peer review] process whenever
                    these two companies are involved."
                    * Auqust 3, 1987, NSF received a proposal                           from
                     * October 17, 1987, the             proposal was considered by a
                     review panel.
                    -*   November 2 0 , 1987,         a issued a conflict-of-interest
                              and            .
                    -recusal notice concerning his financial interest with
                                                He also delegated responsibility for
                     hanAljna any matters associated with these organizations to Ms.
                                                                                    n

                           ---- s, Program Director for
                        .                                                           ,
             DecePPber 15, 1987, a diary memorandum from ---                          stated
         that              3 was not involved in the review panel discussion
         for the
         recommendation was made by
         * January 6, 1988,
                                                      .
                                  proposal, and subsequent consideration and
                                             e accepted a full-time appointment
         as program director ;                ),                       , with salary and
         benefits paid by NSF.
              January 17, 1988,                o changed his work schedule from
         full-time to part-time employment (Monday through Thursday, 32
         hours per week).
         * February 24, 1988, ----- - . -----,                              3 (with "
                     was . awarded               2 w i k future commitments oi
                   3 for FY 1989 and              3 for FY
         i         uary 26, 1988,,'                                          c was awarded
         $      0 with future commitments of                     2 for FY 1989,            1
         for FY 1990, and            4 for FY 1991.
         * March 3, 1988, Memorandum from                                 to
                     NSF Conflicts-of-Interest Counsellor, 'Office of General
         Counsel (OGC), along with a copy to                                  , requested a
                             projects  .
         conflict-of-interest waiver for overseeing the
         and                                            ,e stated, "1 would have no
         involvement in the renewal process or in any additional funding."
         * April 5, 1988,;                                       AD for        , and
                         , Conflicts-of-Interest Counsellor, signed a
         Memorandum for Waiver under 18 U.S. C. 208 (b), concerning
    j




    %
            -       2.   The waiver allowed                         to participate in the
                                                  projects , but did "not include
0                 - ,  :
                       and
         any negotiation or &her participation in the renewal, amendment,
         or extension of grants involving           - -    '                         or new
         proposals involving                             1;    or- any matters in which
         your wife is directly involved."          (See Attachment 1.)
         * April 1988,                         became program officer for the
         the                      project   .
                    : project and assumed general oversight authority for
                                                                remained program officer
         for the         -                 project and handled all financial
         matters.
         *     November 2, 1988, Memorandum from --- .                               to the
                     ,  file which stated that                          -- e had   not been
         involved in the financial negotiations between                            : and the
         Foundation.                                               - -
               November 7, 1988,                                                    replaces
                      1 as Division Director,
        -* November 16, 1988,                         signed NSF Form 1036, Action
         to
         * April 1989,             -
                                                   ) .
        -Processing Form, recommending second year funding for
                                                             (See Attachment 2. )
                                       : notified his supervisor that his wife,
         vice president for sales for                         , and her staff had become
         responsible for selling the product,                                              ,
    produced by            : under award
    remained program officer for that grant.
                                                            ---           -
                                                                          >


    * June 1990, OIG received the allegation and began inquiry.
        August 15, 1990, OIG advised the Department of Justice, U.S.
    Attorney's Office, that          s may have exceeded the tenns of
    a waiver granted to him under 18 USC section 208(b).        The U.S.
    Attorney's Office declined to prosecute with the understanding
    that NSF would take appropriate administrative actions.
    * September 26, 1990, OIG notified          -    of the inquiry and
    advised him of his rights and obligations.             s signed the
    acknowledgement of his rights and obligations and aareed to
    cooperate fully with this inquiry. In addition, --- ------- was
    interviewed and provided two sworn statements.
    * October 10, 1990, After                  retrieved his personal
    rekords, the interview continued and                  provided two
    additional sworn statements.
        October 18, 1990,             was interviewed and provided a
    sworn'statement.
        December 11, 1990, On the advice of OIG,                         8
    Division Director,      , removed             . as program officer
    for the            award. l
    Evidentiary Findings concerning Travel



*
    We found no evidence that -         : abused official NSF travel.
    We found that the time/attendance records accurately reflected
    the total number of hours worked by           e. However, because
    of inadequate record keeping, the records did not accurately
    reflect when the work was actually performed.
    The allegation received by this office suggested that i
    used NSF travel for his personal benefit.         In response, we
    reviewed all of              s travel and time/attendance records.
    On September 26, 1990,               provided detailed answers to
    questions about recent travel and time/attendance.      On October
    10, 1990, _            provided his personal daily calendars for
    ..&.
    1     and 1989.
        -,---
                         With the assistance of these calendars,
             e provided adequate answers to all questions involving
    his travel and time and attendance.

           l1n a routine review of jackets, we noted the appearance of
     a possible conflict of interest in the award to             . On
    'September   27, 1990, the current Division Director of
     requested guidance from us on this matter. On December 11, 1990,
     after our investigation was completed, we recommended that the
     Division Director remove              as program officer for the
                  award.  Our recommendation was immediately accepted
     and implemented.
a
     There   are several factors that hindered the review of
                 travel and time and attendance records and raised
    questions about                  travel reimbursements and his
    working hours while in travel status.
           1.    The official travel and time/attendance records do not
    adequately document official business conducted and hours worked
    while in a travel status.          The inadequacy of these records
    raised many questions that were easily answered by             t who
    k e ~ t detailed personal records of his travel and time.
      _  ----,-A   stated that he provided receipts and information to
    the clerical assistants who prepared the travel vouchers for his
    signature and signature of his supervisor.                       was
    unaware of office review procedures in his office for these
    travel vouchers.        In addition,               stated that the
    constant turnover of clerical personnel ifi       often complicated
    the processing of administrative duties, such as travel vouchers.
          2.              , work schedule is 32 hours a week, 8 hours
     per day (Monday through Thursday).               would often work
     Fridays and on weekends while in a travel status and was
     permitted to take compensatory time during his regular duty hours
     for those extra days worked.       The official time/attendance
     records did not reflect those actual days worked and the
     compensatory time allowed during his regular duty hours.
          3.               has residences in Washington, D.C.; New York,
    NY; and              Connecticut.              would often spend his
    weekends in New York or Connecticut and return to Washington,
    D.C.,   on Monday morning.      He would usually leave Washington,
    D.C.,    on Thursday afternoon to return to New York.           When
              - - would travel for his official duties, he would often
    1
             .

    travel from New York and return from official travel to New
    York. These travel arrangements complicated    '              travel
    records.      Lack of adequate documentation made the travel and
    time/attendance records appear questionable, especially official
    travel to New York and New England.
     We were not able to determine allowable costs for many of these
     trips because the travel records did not provide enough detail
     and there were no comparable costs for the same travel from
     Washington, D.C., his official duty station.     According to the
     Head, Voucher Examination section, ~ivision of Financial
    -'-Management,all of             s travel cost should have been
     compared to travel from Washington, D.C..  -          stated that
     he was unaware that this comparison should have been made.
 Evidentiary Finding concernhid       -              Conflict
 We found that --.             exceeded the limits of the April 5,
 1988, waiver by signing Form 1036 on November 16. 1988. which
 recommended a second year award for the I------ -                -
  --    -)  project.     However, we do not find avideke that
           2 acted with intent to exceed the limits of the waiver
 or for personal gain.       In a sworn statement on September 26,
 1990,)           ? stated, "1 have never received anything of value
 as a result of this granton We have no evidence that'             e
 received anything of value in exchange for his actions,          On
 October 18, '1990, when questioned about signing the form,
 -   -.       said that he had no recollection of Signing it.
             stated,
      nI assume that I signed this form in error because the
      environment in my office is very chaotic and we have
      little.clerical and administrative suppoft.    We do a
      great deal of our work without having adequate time to
      consider what we are actually doing.
                                              I
      previous funding recommendations came from  --TOw
                                                     that the
      and I always did my best to avoid any involvement in
      the funding of this project.   Further evidence of the
      chaotic pressure we are all under is the fact that both
                     J and              , who were both aware
      of my potential conflict of interest, signed this
      document after I signed."
,On October 11, 1990, we interviewed by telephone,                -  and
                  I
   G a t they were fully aware of -.-           -
                                    previous supervisors. Both stated
                                                   potentia1 conflicts
   with                     and            and that           , was not



                  .,
   involved-in the funding aspects of the
         - n) project
                                                            :
                                  was interviewed on October 11, 1990,
   and stated that she was the program officer on the
                          grant from the beginning until
            assumed responsibility at the end of 1989.              said
   that the intent from the beginning was to limit,
   involvement only to product development and program oversight
   while she handled the financial aspects of the project.
                  added that she received no supervision or
   recommendations for funding from,              and she received her
-- own reports directly from the principal investigator.          After
   reviewing her personal calendar,             stated that she was on
   official travel on November 16, 17, and 18, 1988, when,
   signed the recommendation for the second year award for the
                                    J project.
    Evidentiary Findings concerning Scholastic Conflict
    We found that          --f did exceed the limits of the April 5,
    1988, waiver by continuing to act as Program Officer on the
              . project after his wife became directly involved in the
    selling of                           produced bv -                 under
    the grant. We do not recommend that         - _ - - -- 3 be censured for
    exceeding the waiver because he did notify his supervisor of his
    wife's involvement and was allowed to remain the program officer
    for the grant. The supervisor8s reasoning is discussed below.
    Findings Concerning Jacket Documentation
    The documentation in the - - - - - -    and --          -? {     -WAI
                                                                      d-

I            jackets were so inadequate and disorganized that we were
    not abie to determine basic facts and events pertinent to the
    investigation.   Lack of documentation in the jackets prolonged
    and complicated our inquiry.         We eventually' had to rely on
    interviews to obtain all the needed information.       The following
    are examples of inadequate documentation.
         1.    As described above, the jackets were riddled with
    memoranda and recusal statements mentioning the conflicts, but
    neither jacket had a copy of the waiver, mentioned the waiver,
    or fully documented the conflict-of-interest advice which allowed
    i
                to work on these projects.   The waiver was found by
    OGC only after our third request and after we talked personally
    with the former NSF Conflict-of-Interest Counsellor/OGC.
         2.
    program officers for these pro? ects
    not clearly show when I
                                           .
              The jackets did not clearly describe assicrnments of the
                                             The          : jacket did
                                        started as program officer or
    when    -
                ----. . became  program officer.    The h          ___
                         jacket did not clearly show the separation of
    duties between ,--.        as program officer and              who
    had general oversight responsibilities.
           3.   Finally, neither jacket contained complete copies of
    N S F Form 1036, which shows the signatures of the program officer,

 third year funding     .
 division director, and assistant director recommending second and
                         We finally obtained copies of Form 1036
 for these projects from the Division of Grants and Contracts,
-which had copies on microfilm.
    Poor documentation is particularly disturbing because the jacket
    is the authoritative source of information documenting the grant
    process,
    -        the basis of N S F decisions, and the source for systems
    input.
2




a
    Findings concerning Program Management
    and Conflicts Advice
    The early overall program management of the           program, as
    well as advice from OGC, contributed to the initial decision to
    allow             to be involved with these grants.
    was an informal advisor to                 ~ivision Director for
        , and was part of the initial development of the
    program, before becoming a full-time volunteer and later an
    employee assiqned to     . "--  -       stated that he was always
    aware of                con~~rcts, but that he used
    because he was a specialist whose expertise was needed on these
    projects.               was also the conflicts official for
    and stated that the division did everything it could to keep the
    conflicts issue public and protect all parties involved.
    We believe that there was a good faith effort to document the
    conflicts, but most of the memoranda and recusal statements were
    generated after the fact.      For example,             became a
    volunteer in January 1987, but the first memorandum addressing
    his conflicts is dated June 4, 1987.     In addition, the
          ,,                   proposal was received on February 5,
    1987, and the           c-
                             proposal was received on August 3, 1987,
    but the first conflict-of-interest recusal notice is dated
    November 20, 1987.~
                   March 3, 1988, request for a waiver stated, "The
    purpose of the waiver we discussed would be to give me oversight
    permission--I would have no involvement in the renewal process or
    in any additional funding."     However, in April 1988, OGC found
    that                interest
                              - .in            was not substantial and
    accordingly allowed "           to become actively involved in the
                matter even though he suggested that his involvement
    be limited.


          2~uring this period                 was to file financial
                                            and                 .
    disclosure forms (NSF ~ o r m681) which would have identified his
    financial interests in both1-                                 OGC
    and Division of Personel Management (DPM) were only able to find
    one NSF ~ o n n681 filed by            dated July 11, 1990, which
    listed his financial interest in both                       ? and
                  We could find no evidence that any action was taken
    based on the information disclosed on this form. DPM did notify
    OGC that;                     ot file a NSF Form 681 in 1989.
    However, we found no evidence that OGC took any action after
    being advised that              had not filed a NSF Fonn 681 in
    1989.
     In a memorandum to the AD          the N S F     Conflicts-of-Interest
     Counsellor/OGC stated,
          "With respect to his interest in                 , this
          comes through his wife who is an officer in the
          company.      However, her work in marketing involves
          virtually no contact with the program whose development
          N S F is funding. I think this connection is remote and
          minor enough to permit a waiver, except I suggest that
          the waiver not apply to any matter in which his wife is
          directly .involved."
    As the former NSF Conflicts-of-Interest Counsellor/OGC indicated,
    OGC had been advised in writing that              wife was a vice
    president of             responsible for sales who had "little or
    no contact with the [magazine] that [NSF was] developing."
    However, OGC was not advised in writing and apparently was not
    aware that                       wife would have supervisory
    responsibility for selling the magazine after it had been
    developed by            under the N S F grant. Program management
    apparently did not volunteer essential information and OGC
    apparently did not request additional or more specific
    information.     This represents a substantial breakdown in
    communication in the NSF conflicts-of-interest system.
    The waiver was drafted by the former N S F conflicts-of-~nterest
    Counsellor/OGC and reviewed and approved by the G e n e m l Counsel.
    It allowed              to be program officer for the
    award.   However, the waiver explicitly stated that it did not
    apply Itto any matters in which your wife is directly involved."
    In   April   1989,                  notified his new supervisor,
                     - - that his wife had become responsible for
     selling t h e magazine produced under t h e NSF grant.
                       stated that he allowed             to continue as
     program officer for the              award after he read the waiver      I




                                                                              1!
     and past conflict-of-interest documents pertaining to
                        stated that he did not request advice from OGC
     because he'd had reservations about the conflict prior to this,
\
     and discussed his reservations with OGC and the AD       I who told      I
                        that the issue had been properly reviewed and
     M a t the waive; was final.     According to                     he      I
    .:-believedthat it was not his place to question a determination
     previously made by NSF lawyers and management.
    During the interview on October 10, 1990,   . .       stated that
    he did not know the specifics of his wife's financial interest in
                prior to -our investigation.    On October 10, 1990,
a

     complete  information about his wife's    financial interest in
                   This included information about salary, incentive
     opportunities (including bonuses for sales), 4,000 option shares
     of common stock of unknown value, and a non-liquid debenture bond
     for 1,000 option shares worth-approximately $6,000, According to
     the former NSF conflicts-of-interest Counsellor/OGC and
                 these details were not discussed when the April 1988
     waiver was issued.
     We believe that the details of                  wife's  financial
     interest in -            should have been thoroughly reviewed
     prior to the' issuance of a waiver.                     financial
     interest inl           sppears substantial. Moreover, as noted
     above, program staff were aware at the time the waiver was
     issued that ;           wife would ultimately become responsible
     for selling the magazine developed under the NSF grant.       For
     this reason, we consider the initial waiver to ,be inappropriate,
     We also believe that OGC should have been formally asked to
     reevaluate the appropriateness of the waiver once
     wife's  obtained direct responsibility for marketing the NSF
     funded product.
     Finally,      and       management had prior warnings of possible
     problems in the ~ugust 3, 1988, "Report of the External Peer
     Oversight Committee for the Review of the National Science
     Foundation                                       P r ~ g r a m . ~ Under
     the section, nAre decisions understandable from the
     documentation,tt the report stated,
          "some jackets need a better 'paper trail', particularly
          in cases where there are funding anomalies.         For
          example, in cases where funding was split between
          programs or where proposals initially were declined in
          this program but were funded later in another program,
          the information in the jacket was incomplete and we
          were required t o query program officers for
          clarification. We recommend that the entire history of
          a project be included in the jacket. This information,
          together with more information about the qualifications
          of reviewers to review the particular proposal, would
          provide a more defensible position regarding how
          decisions were made."
    .-
    -Under the "Additional comments" section, the report stated,
          "One programmatic aspect of this program demands
          comment.  This is the focus through solicitations on
                               partnerships in projects, in the
          design phase as well as in dissemination activities.
    It demands comment because of its potential both for

                          .out... that.
    positive accomplishments and for abuse or the
    .
    appearance of abuse.
    We
                   a

        wish to point
                                          .     .
                                    this could be a very
    sensitive, high-risk area ; and it requires careful
    monitoring, frequent evaluation, and exceptionally good
    documentation. We are certain that everyone is aware
    of the potential political issues associated with
    requiring the participation of                       in
    development projects  . ...
    what could be one-half the funding of materials
                                we recommend that serious
    consideration be given to holding a special oversight
    review of this aspect of the program in order to place
    the Directorate in the best position to meet possible
    criticisms. @I3
We could find no evidence that this guidance was heeded or
implemented.
Conclusions
The         program was designed to include the                  in
marketing and selling educational materials produced under NSF
grants.    From the perspective of the                   N S F was
providing venture capital and the              were involved to
make a profit.                                    - - later
                              as vice president and    -      as a
retired employee and stockholder of
substantial financial interest in,
wife is the Vice President and ~ireckorof Sales of
                                                    .        had a
                                                                  -

and has stock options in               that make her financial
interest in              substantial.                 as program
officer for the            project and "general overseerN of the

     31n responding to our draft Investigative Report on this
matter,             criticized the report of the External Peer
Oversight Committee by objecting to any implication Vhat
           are less honest than professors or other developersn.
According to                t         government administration
encourages cooperative efforts with private industryw.
-We do not mean to discourage cooperative ventures with private
-industry. However, like the External Peer Oversight Committee,
 we believe that financial conflicts of interest can become quite
 serious when commercial applications are involved. Accordingly,
 in our opinion, NSF program officers like            . need to be
 especially careful in handling financial conflicts of interest
 which may arise in the context of commercial ventures.
                '--
                      - .   ...   .
                                  project, was in a position to
influence grants involving companies in which he and his wife had
substantial financial interests. As an NSF official,
conducted site visits at publishing companies in which he and his
wife had substantial financial interest and personal contacts,
These visits heightened the appearance of conflicts and may have
led to these allegations.
Despite these real and apparent conflicting interests, a waiver
was issued which allowed              to participate actively in
the            project. The basis for deciding whether a waiver
should be granted is whether the financial interest is likely to
affect the integrity of the service expected of the employee, In
order to make this assessment it is necessary to evaluate all
relevant information.    However, OGC did not obtain specific
information about the extent of the            -'inancia1 interest
in              Moreover, because of poor communications between
attorneys and program staff, OGC apparently was not aware of the
essential fact that                 wife would have supervisory
responsibility for selling the NSF-funded magazine after it was
developed. Given these facts, we believe that               should
not have been allowed to participate actively in the
grant.
 Past decisions aside, at the present time                wife has
 supervisory responsibility for individuals who are now selling
 the magazine produced under the NSF grant.       Accordingly, we
 believe             should no longer be involved in any way with
 the             project and should immediately discontinue site
 visits to                and                       In our view,
 continued participation on site visits would be insensitive to
 past and present conflicts and create an unacceptable appearance
 of conflict of interest.
    As a matter of law,               cannot be sanctioned for acting
    within the terms of a waiver, even a waiver issued improperly.
    However,             twice exceeded the terms of the waiver; once
    by executing the second amendment to the
             award, and a second time when continuing to participate
    in the             project after his wife had become responsible
    for the active selling of the magazine funded by NSF.     Both of
    these actions were undertaken with the approval of his
..- supervisors and do not appear to have been motivated by personal
    gain. Quite to the .contrary, our review of this matter indicates
    that            is an employee who works hard in support of NSF's
    effort because of a genuine interest in the subject matter.
 In addition, we are aware of no evidence which indicates that
 the funding decisions made by the Foundation would have been
 materially affected had           - not exceeded the terms of the
 waiver.   For these reasons, ana ~ecause               cooperated
 with our investigation fully and credibly, we recommend that he
 not be formally censured.          During the course of our
 investigation,             was counseled and admonished about his
 obligations to conform to conflict-of-interest restrictions, We
 believe this counseling should be adequate to prevent
 reoccurrence of similar problems.
 In addition to conclusions which are particular to the actions of
             our review uncovered what we suspect are significant
 systemic problems.   First, it is evident to us that adequate,
 well-organized records on conflicts of interest were not
 maintained in appropriate jackets, in program files, or by OGC.
 We believe that the poor condition of these records may be a
 significant management deficiency.    If conflicts of interest,
 recusals and waivers are not obvious after a review of a file
 jacket, individuals who should be recused from a particular
 project may inadvertently be asked to become involved.       More
 important, if OGC does not have adequate records concerning
 conflicts waivers, and the underlying reasoning supporting those
 waivers, there is significant reason to be concerned about
 possible carelessness, adequacy of supervisory review and
 consistency among decisions.
  Finally, it is important to emphasize that the          program and
  many other programs undertaken by the          directorate involve
  extensive interaction with for-profit organizations.       For this
  reason,      management should be especially sensitive regarding
  financial interests which employees have in commercial
  organizations.    Management within the          division was not
  appropriately sensitive to conflicts problems in this case.
  Instead the former Division Directors, who were also the ~ivision
  Conflicts Officials, activelv encouraaed                to continue
  to participate fully in the              jroject. The attitude of
  past division management is particularly troubling because of the
  warnings contained in the report of the 1988 External Peer
  Oversight Committee for the           Division.     Accordingly we
  Suggest that the Assistant Director for          initiate steps to
  ensure that program staff become especially sensitive to any
  financial interests that they may have in commercial
  organizations with which they have official contact.          staff
- should seek counselling on these issues, particularly with
-respect to 18 USC 208.
Recommendations
Based on the above-stated findings and conclusions, we recommend
that :
                    should be removed as program officer on the
            projact.

(: .            should not have any active involvement in grants
involving                  -             including participating
in site visits to
(3)           should clearly document: ( 1) conflict-of -interest
advice      jackets, (2) time/attendance records, and ( 3 ) travel
vouchers.
(4)   Because so much of the       program involves commercial
applications, the Assistant Director for     should conduct a
review of        focusing on conflicts of interest and the
recommendation of the 1988 External Peer Oversight Committee
report.
                                    March 25, 1991




                                                                       I
     4 ~ h i srecommendation was forwarded to the Division Director,   1
                                                                       I
    , on December 11, 1990, and was immediately accepted and
implemented.
